                        Statistical Portrayal of the
                    Criminal Investigation Function’s
                       Enforcement Activities From
                Fiscal Year 1999 Through Fiscal Year 2003

                                     June 2004

                       Reference Number: 2004-10-115




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      June 29, 2004


       MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION


       FROM:                        Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

       SUBJECT:                     Final Audit Report - Statistical Portrayal of the Criminal
                                    Investigation Function’s Enforcement Activities
                                    From Fiscal Year 1999 Through Fiscal Year 2003
                                    (Audit # 200410016)


       This report presents the results of our review of statistical information that reflects
       activities of the Criminal Investigation (CI) function from Fiscal Years (FY) 1999 through
       2003. The overall objective of this review was to provide statistical information and
       trend analyses of the CI function statistics since the issuance of the Webster Report1 in
       April 1999. The audit was conducted as part of the Treasury Inspector General for Tax
       Administration’s FY 2004 Annual Audit Plan.
       Beginning in FY 2002, the CI function began to turn around the negative trends from
       earlier years. Specifically, the number of subject investigations initiated increased,
       more time was spent directly on subject investigations, and fewer days were expended
       to discontinue a subject investigation. These indicators continued to show improvement
       in FY 2003; however, the number of subjects convicted and sentenced continued to fall.
       We are optimistic that the improvements in the indicators will continue under the current
       Commissioner’s efforts to increase productivity and if planned increases in special
       agent staffing materialize.
       A major objective of the CI function’s strategy the last several years has been increased
       support of compliance efforts through the increased application of resources on tax
       administration investigations. This emphasis is reflected by the significant increases
       from FYs 2001 to 2002 in the number of subject investigations initiated in the Legal
       Source Tax Crimes Program (52 percent) and those with tax-related violations

       1
        Review of the Internal Revenue Service’s Criminal Investigation Division (Publication 3388; 4-1999), also known
       as the Webster Report.
                                                           2

(33 percent). However, the number of legal source tax investigations initiated
decreased slightly in FY 2003, while the number of initiated nontax-related illegal source
financial crimes and narcotics-related subject investigations increased slightly. Also, the
number of subject investigations initiated with tax-related violations remained virtually
unchanged in FY 2003.
Members of the Senate Finance Committee (SFC) believe the CI function can and
should do more to investigate legal source tax crimes. Members of the SFC have
expressed concern that the local United States Attorneys’ offices are influencing the CI
function’s caseload away from legal source tax investigations and toward nontax-related
investigations. We are currently conducting a review to evaluate the effectiveness of
the CI function’s efforts to increase legal source tax investigations and will be
addressing how the CI function categorizes its investigations within its Compliance
Strategy.2
CI function special agents have a reputation of being the best financial investigators in
the Federal Government. As a result, they are often asked to participate in
investigations with other organizations. Further, the CI function participates in the
President’s various enforcement initiatives, such as the war on terrorism. These
initiatives are important in protecting our nation, but they may not always result in legal
source tax or tax-related investigations. Given these other priorities and the challenge
of sustaining increased staffing, we believe the CI function will be continually challenged
to significantly increase legal source tax investigations while providing the necessary
support to other critically important Federal Government initiatives. CI function
management must remain vigilant to ensure the progress made in FY 2002 in
increasing legal source tax and tax-related investigations continues in future years.
We made no recommendations in this report. However, key CI function management
officials reviewed the report and provided comments that were considered prior to its
issuance.
Copies of this report are also being sent to the Internal Revenue Service managers
affected by the report. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




2
    Effectiveness of the CI Function’s Efforts to Increase Legal Source Cases (Audit # 200310042).
                Statistical Portrayal of the Criminal Investigation Function’s
           Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003




                                             Table of Contents


Background ............................................................................................... Page 1
Some of the Negative Trends From Earlier Years Started Improving in
Fiscal Years 2002 and 2003 ...................................................................... Page 2
Challenges Remain for the Criminal Investigation Function to
Significantly Increase Legal Source Tax Investigations............................. Page 5
Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 9
Appendix II – Major Contributors to This Report........................................ Page 10
Appendix III – Report Distribution List ....................................................... Page 11
Appendix IV – Glossary of Terms .............................................................. Page 12
Appendix V – Detailed Charts of Statistical Information ............................ Page 14
             Statistical Portrayal of the Criminal Investigation Function’s
        Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

                                In recent years, the Internal Revenue Service (IRS) has
Background
                                made tremendous efforts to improve customer service and
                                make it easier for taxpayers to comply with their tax
                                obligations. The IRS also has a variety of criminal and civil
                                sanctions available that can be employed when taxpayers
                                refuse to comply or attempt to evade their tax obligations.
                                The vigorous enforcement of criminal statutes within the
                                Criminal Investigation (CI) function’s jurisdiction is an
                                integral component of the IRS’ comprehensive efforts to
                                enhance voluntary compliance and foster confidence in the
                                fairness and integrity of the tax system.
                                The CI function is the only law enforcement organization
                                with the authority to investigate criminal tax violations.
                                Over the last few decades, the Congress and the Department
                                of the Treasury have expanded the CI function’s jurisdiction
                                to also cover offenses under money laundering and currency
                                reporting statutes.1 Accordingly, the CI function has been
                                involved with both legal and illegal source income
                                investigations, including those involving organized crime
                                and narcotics.
                                In general, legal source investigations involve legal
                                occupations or industries and legally earned income in
                                which the primary motive is the violation of tax statutes.
                                Illegal source investigations involve illegally earned income
                                such as crimes involving money laundering and currency
                                reporting violations. They also involve investigations of
                                violations of the Internal Revenue Code2 in which other law
                                enforcement agencies participate.
                                In April 1999, Judge William Webster issued a report3 of his
                                review of the CI function’s operations that had been
                                requested by the Commissioner of the IRS. Judge Webster
                                concluded the CI function had drifted away from its primary
                                mission of investigating criminal violations of the Internal
                                Revenue Code, likely as a result of its expanded
                                investigative authorities and demands to participate in
                                narcotics investigations placed on it by other law

                                1
                                  18 U.S.C. Sections (§§) 1956 and 1957 (2004) and Title 31 U.S.C.,
                                Money and Finance, sections.
                                2
                                  Title 26 U.S.C.
                                3
                                  Review of the Internal Revenue Service’s Criminal Investigation
                                Division (Publication 3388; 4-1999), also known as the Webster Report.
                                                                                              Page 1
               Statistical Portrayal of the Criminal Investigation Function’s
          Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

                                  enforcement entities. Judge Webster recommended the CI
                                  function refocus on its primary mission of investigating
                                  criminal violations of the internal revenue laws.
                                  We initiated this review as part of the Treasury Inspector
                                  General for Tax Administration’s (TIGTA) Fiscal
                                  Year (FY) 2004 Annual Audit Plan to provide statistical
                                  information pertaining to the CI function’s enforcement
                                  activities from FY 1999 through FY 2003 and trend
                                  analyses of that information. While our trend analyses
                                  covered all these periods, our report concentrates on
                                  providing a perspective for the 2 most current fiscal years.
                                  Our data analyses were done in the TIGTA Chicago,
                                  Illinois, office during February and March 2004 using data
                                  accumulated by the IRS. The audit was conducted in
                                  accordance with Government Auditing Standards.
                                  However, we relied on information accumulated by the IRS
                                  and did not verify its accuracy. Detailed information on our
                                  audit objective, scope, and methodology is presented in
                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II. A glossary of terms is included in
                                  Appendix IV. Detailed charts and tables referred to in the
                                  body of the report are included in Appendix V.
                                  Beginning in FY 2002, the CI function began to turn around
Some of the Negative Trends
                                  the negative trends in the number of subject investigations
From Earlier Years Started
                                  initiated, the number of subject investigations referred for
Improving in Fiscal Years 2002
                                  prosecution, the percentage of direct investigative time, and
and 2003
                                  the average number of days expended on discontinued
                                  subject investigations and on subject investigations referred
                                  for prosecution.4
                                  These indicators continued to show improvement in
                                  FY 2003, yet the number of subjects convicted and
                                  sentenced continued to fall.5 Although declines in
                                  convictions and sentences can be caused by a variety of
                                  factors, including the quality of investigations and the
                                  Department of Justice workload and priorities, we believe
                                  these downward trends reflect a timing issue. Actions on
                                  criminal investigations may span more than 1 year, so the
                                  more recent declines in convictions and sentences are more


                                  4
                                      Appendix V, Figures 3, 6, 14, 15 and 20.
                                  5
                                      Appendix V, Figures 21 and 23.
                                                                                        Page 2
     Statistical Portrayal of the Criminal Investigation Function’s
Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

                        likely to be a function of the decline in the number of
                        subject investigations initiated in previous years. If the CI
                        function continues to expand its numbers of subject
                        investigations and special agents, we would expect the
                        effect on sentences and convictions to improve accordingly.
                        Resources applied to criminal enforcement activity
                        Special agent staffing levels increased 6 percent from
                        FYs 2000 to 2002, with over 600 new special agents
                        entering on duty. However, due to attrition, the net increase
                        was only 161 special agents.6 In addition, the number of
                        special agents working in field offices continued to decrease
                        until FY 2002,7 as newly hired agents had not yet been
                        assigned to specific field offices.
                        The CI function expects to substantially increase special
                        agent staffing by approximately 575 in FYs 2004 and 2005.
                        As of the midpoint in FY 2004, 73 new special agents had
                        entered on duty. However, the CI function is losing special
                        agents due to attrition faster than it is replacing them.
                        Despite new hires, the overall number of special agents
                        decreased in FY 2003 and again in the first half of FY 2004,
                        to 2,780.
                        Sustaining increased staffing in the enforcement areas of the
                        IRS, in general, remains a challenge. Although the CI
                        function expects to increase staffing, the General
                        Accounting Office recently issued testimony8 concluding
                        that priorities other than enforcement, including unbudgeted
                        expenses, have consumed IRS budget increases and savings
                        over the last several years.
                        We are concerned that this pattern threatens the continued
                        growth in criminal investigations and related improvements
                        in convictions and sentences.
                        Criminal enforcement activities improved
                        Almost all enforcement indicators showed negative trends in
                        FYs 1999 to 2001. In early FY 2001, the CI function’s

                        6
                          Appendix V, Figure 1.
                        7
                          Appendix V, Figure 2.
                        8
                          Internal Revenue Service: Assessment of Fiscal Year 2005 Budget
                        Request and 2004 Filing Season Performance (GAO–04-560T, dated
                        March 2004).
                                                                                    Page 3
     Statistical Portrayal of the Criminal Investigation Function’s
Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

                        Planning and Strategy section in the Headquarters office
                        conducted focus interviews with one-third of the Special
                        Agents in Charge (SAC)9 to determine the cause(s) of
                        declines in enforcement indicators. Analyses of data from
                        the Criminal Investigation Management Information System
                        were also done. No single factor was identified for the
                        cause of the decline in productivity.
                        Criminal enforcement indicators showed improvements in
                        FYs 2002 and 2003. For example,
                                 •   The number of subject investigations initiated
                                     was 22 percent higher in FY 2003 compared to
                                     FY 2001.10
                                 •   The number of days expended on discontinued
                                     subject investigations started to decline from an
                                     average of 506 days in FY 2001 to 428 days in
                                     FY 2003. 11
                                 •   The percentage of direct investigative time
                                     reported in FY 2003 was higher than that in
                                     FY 1999.12
                                 •   The number of open subject investigations per
                                     nonsupervisory special agent remained relatively
                                     constant at about 1.7 investigations per agent,
                                     until increasing to 1.9 per agent in FY 2002. In
                                     FY 2003, this figure was 2 investigations per
                                     agent.13
                                 •   In FY 2003, the total number of subject
                                     investigations referred for prosecution started to
                                     increase.14
                        These measures indicate the CI function is becoming more
                        efficient in carrying out its duties. We believe this is

                        9
                          Each of the CI function’s 35 field offices has a SAC who is responsible
                        for the criminal investigation activities within that office’s area.
                        10
                           Appendix V, Figure 3.
                        11
                           Appendix V, Figure 14.
                        12
                           Appendix V, Figure 6.
                        13
                           Appendix V, Figure 12. Special agents may have other types of
                        investigations assigned concurrently with open subject investigations.
                        In FYs 2002 and 2003, the average inventories were 6.99 and 7.48,
                        respectively.
                        14
                           Appendix V, Figure 15.
                                                                                         Page 4
                 Statistical Portrayal of the Criminal Investigation Function’s
            Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

                                    attributable to CI management’s and the current
                                    Commissioner’s emphasis on improving productivity.
                                    One of the recommendations in the Webster Report was for
Challenges Remain for the
                                    the CI function to refocus on its primary mission of
Criminal Investigation Function
                                    investigating criminal violations of the internal revenue
to Significantly Increase Legal
                                    laws. The CI function subsequently created a new mission
Source Tax Investigations
                                    statement to better reflect its primary mission of
                                    investigating potential violations of the internal revenue
                                    laws. It also developed a compliance strategy to reinforce
                                    its primary mission. The strategy is currently comprised of
                                    three interdependent programs (Legal Source Tax Crimes,
                                    Illegal Source Financial Crimes, and Narcotics-Related
                                    Financial Crimes) and explains the CI function’s role in the
                                    overall compliance efforts of the IRS.
                                    In addition to differentiating between legal and illegal
                                    source investigations (as previously discussed in the
                                    Background section), the CI function also categorizes
                                    investigations as tax-related and nontax-related. A
                                    tax-related investigation addresses violations of Title 26
                                    United States Code (U.S.C.) (the Internal Revenue Code)
                                    and select sections of Title 18 U.S.C.15
                                    A major objective of this strategy for the past several years
                                    has been increased support of IRS compliance efforts
                                    through the increased application of resources on tax
                                    administration investigations. There was also a goal to
                                    reduce time spent on narcotics-related investigations to be
                                    more in line with reimbursements.16 This emphasis is
                                    reflected by the substantial increase from FYs 2001 to 2002
                                    in the number of subject investigations initiated in the Legal
                                    Source Tax Crimes Program (52 percent) and with
                                    tax-related violations (33 percent).17
                                    However, the number of legal source tax investigations
                                    initiated decreased slightly in FY 2003, while the number of
                                    nontax-related illegal source financial crimes and


                                    15
                                       18 U.S.C. §§ 286 and 287 (2004), § 371 (2004) relating to a Title 26
                                    violation, and § 371 (2004) relating to a Title 26 and Title 31 violation.
                                    16
                                       The CI function receives funds for its participation in the Department
                                    of Justice’s Organized Crime Drug Enforcement Task Force
                                    investigations.
                                    17
                                       Appendix V, Figures 7 and 9.
                                                                                                       Page 5
     Statistical Portrayal of the Criminal Investigation Function’s
Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

                        narcotics-related subject investigations initiated increased
                        slightly. Also, the number of subject investigations initiated
                        with tax-related violations remained virtually unchanged in
                        FY 2003, while the number of nontax-related subject
                        investigations initiated increased. The changes in
                        nontax-related illegal source and narcotics-related
                        investigations, though modest, indicate the CI function must
                        aggressively continue its efforts to further increase legal
                        source and tax-related investigations to fully achieve the
                        expectations of the Webster Report and to build on the
                        progress made in FY 2002.
                        Congressional interest in criminal investigation activities
                        Members of the Senate Finance Committee (SFC) believe
                        the CI function can and should do more to investigate legal
                        source tax crimes. Members of the SFC expressed concern
                        that the local United States Attorneys’ (USA) offices are
                        influencing the CI function’s caseload away from legal
                        source tax crimes and toward nontax-related investigations.
                        Our analysis of data shows that the USAs’ offices generated
                        approximately one-fifth of the subject investigations
                        initiated in FYs 2002 and 2003;18 19 and 21 percent,
                        respectively, with approximately one-half of the
                        investigations involving tax-related violations.
                        In addition, the number of subject investigations initiated
                        from liaison with other government agencies accounted for
                        about one-third of the total subject investigations initiated in
                        FYs 2002 and 2003; 32 and 33 percent, respectively, with a
                        majority of these investigations involving nontax-related
                        violations.
                        In contrast, the number of subject investigations initiated in
                        which the IRS or the public was the source of the
                        information accounted for about one-third of the
                        investigations initiated in FYs 2002 and 2003; 35 and
                        34 percent, respectively, and also representing
                        approximately one-half of those with tax-related violations.
                        Initiating more cases from sources external to the IRS
                        concerns us. The IRS Commissioner has emphasized the
                        urgency of improving enforcement of tax laws at the IRS as


                        18
                             Appendix V, Figure 10.
                                                                                 Page 6
     Statistical Portrayal of the Criminal Investigation Function’s
Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

                        a defining element of tax compliance. Together with the
                        refocused mission emphasized by the Webster Report, we
                        would have expected the CI function to initiate more cases
                        for investigation from IRS examiners and other internally
                        evaluated sources. The static pattern of initiating
                        investigations from these sources in FYs 2002 and 2003
                        poses a risk to the CI function in increasing the
                        contributions from a vigorous fraud referral program when
                        front-line IRS examiners suspect tax fraud and, ultimately,
                        of achieving the Commissioner’s bold vision to energize
                        enforcement at the IRS.
                        We are currently conducting a review to evaluate the
                        effectiveness of the CI function’s efforts to increase legal
                        source tax investigations and will be addressing how the CI
                        function categorizes its investigations within its Compliance
                        Strategy.19
                        Reviews of Lead Development Centers and the tax fraud
                        hotline
                        We recently raised concerns that the 12 Lead Development
                        Centers (LDC) the CI function established in FYs 2001 and
                        2002 as a means for increasing legal source tax
                        investigations were not achieving this primary mission.20
                        We stated that the LDCs could not influence the growth of
                        legal source tax investigations because they were
                        responding to incoming referrals provided by the CI
                        function’s field offices. The Chief, CI, agreed with the
                        recommendations in the report, and a redesign and
                        realignment of the LDC organizational structure was
                        implemented to establish investigative responsibilities for
                        5 of the 12 LDCs based on the CI function’s major
                        strategies and investigative priorities.
                        In another recent report,21 we determined the LDCs rarely
                        assigned referrals from the toll-free tax fraud hotline to the

                        19
                           Effectiveness of the CI Function’s Efforts to Increase Legal Source
                        Cases (Audit # 200310042).
                        20
                           Lead Development Centers Do Not Significantly Contribute to
                        Increases in Legal Source Cases (Reference Number 2003-10-201,
                        dated September 2003).
                        21
                           The Tax Fraud Hotline Has Not Been an Effective Source for
                        Criminal Tax Investigations (Reference Number 2003-10-210, dated
                        September 2003).
                                                                                         Page 7
     Statistical Portrayal of the Criminal Investigation Function’s
Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

                        field offices for evaluation, even though its review indicated
                        these referrals could reveal significant fraud allegations and
                        thus should be given consideration. The Chief, CI, believed
                        the hotline call sites provided only a limited number of
                        informant communications that met criminal prosecution
                        potential, but agreed the CI function had a shared
                        responsibility to provide instructions and guidance on
                        potential informant communications to the Wage and
                        Investment Division, the business owner of the hotline call
                        site function.
                        While we believe the proposed corrective actions in the two
                        TIGTA reports will assist the CI function in its efforts to
                        increase legal source tax investigations, competing priorities
                        with other initiatives will place limitations on the CI
                        function’s ability to significantly increase legal source and
                        tax-related investigations. CI function special agents have a
                        reputation of being the best financial investigators in the
                        Federal Government workforce. As a result, they are often
                        asked to participate in investigations with other
                        organizations. Further, the CI function participates in the
                        President’s various enforcement initiatives, such as the war
                        on terrorism. These initiatives are important in protecting
                        our nation but may not result in legal source tax or
                        tax-related investigations.
                        Given these competing priorities, we believe the CI function
                        will be faced with the continuous challenge to increase legal
                        source tax investigations while providing the necessary
                        support to other critically important Federal Government
                        initiatives. CI function management must remain vigilant to
                        ensure the progress made in FY 2002 in increasing legal
                        source tax and tax-related investigations continues in future
                        years.




                                                                               Page 8
                Statistical Portrayal of the Criminal Investigation Function’s
          Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide statistical information and trend analyses of
the Criminal Investigation (CI) function statistics since the issuance of the Webster Report1 in
April 1999 and the subsequent reorganization of the CI function in July 2000.
To accomplish our objective, we reviewed Internal Revenue Service (IRS) data publications and
the CI function’s management information to analyze data and identify trends. We relied on
information accumulated by the IRS and the CI function in established reports and the CI
function’s management information system and did not verify its accuracy. The major issues we
focused on included:
                 •   Special Agent Staffing.
                 •   Investigation Initiations.
                 •   Open Investigations.
                 •   Investigation Closures.
                 •   Investigations Referred for Prosecution.
                 •   Subsequent Legal Actions.
                 •   Compliance Strategy Programs.




1
 Review of the Internal Revenue Service’s Criminal Investigation Division (Publication 3388; 4-1999), also known
as the Webster Report.




                                                                                                        Page 9
              Statistical Portrayal of the Criminal Investigation Function’s
        Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Acting Director
Diana M. Tengesdal, Audit Manager
Donald L. McDonald, Senior Auditor
Niurka M. Thomas, Auditor




                                                                                      Page 10
              Statistical Portrayal of the Criminal Investigation Function’s
        Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

                                                                         Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief, Criminal Investigation SE:CI:S:PS




                                                                                Page 11
               Statistical Portrayal of the Criminal Investigation Function’s
         Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

                                                                                    Appendix IV


                                      Glossary of Terms

Compliance Strategy – The Criminal Investigation (CI) function strategy comprised of three
interdependent program areas: Legal Source Tax Crimes, Illegal Source Financial Crimes, and
Narcotics-Related Financial Crimes.

Criminal Investigation Management Information System (CIMIS) – A database that tracks
the status and progress of criminal investigations and the time expended by special agents.

Direct Investigative Time – Time spent by special agents conducting investigations and other
law enforcement activities.

Discontinued Investigation – A subject investigation that resulted in a determination there was
no prosecution potential.

Elapsed Days – The number of days between the initiation of a subject investigation to another
date such as the date discontinued or date referred for prosecution.

Field Special Agent – A special agent in 1 of the CI function’s 35 field offices.

Fraud Detection Center – A CI function organization responsible for identifying and detecting
refund fraud, preventing the issuance of false refunds, and providing support for the CI function
field offices.

Grand Jury Investigation – Investigation conducted through the use of a Federal grand jury to
determine if a subject should be charged with a crime. The use of the Federal grand jury to
investigate the potential crime(s) may be initiated by the CI function or by an attorney for the
Federal Government.

Illegal Source Financial Crimes – Those crimes involving illegally earned income. They
include crimes involving money laundering, 18 United States Code (U.S.C.) Sections (§§) 1956
and 1957, sections of U.S.C. Title 31, Money and Finance, and U.S.C. Title 26 violations
investigated in conjunction with other agencies.

Inventory/Agent – The number of open subject investigations divided by the number of field
special agents whose salary grade level is 13 or below and having various position descriptions
including those of coordinator and reviewer.

Legal Source Tax Crimes – Those crimes involving legal industries and occupations and
legally earned income.
                                                                                          Page 12
               Statistical Portrayal of the Criminal Investigation Function’s
         Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003


Narcotics-Related Financial Crimes – Those crimes involving tax and money laundering that
are related to narcotics and drug trafficking.

Primary Investigation – An evaluation of an allegation that an individual or entity is in
noncompliance with the internal revenue laws and related financial crimes.

Referred for Prosecution – A subject investigation that resulted in the determination of
prosecution potential referred to the Department of Justice.

Special Agent – CI function law enforcement employee who investigates potential criminal
violations of the internal revenue laws and related financial crimes.

Subject Investigation – An investigation of an individual or entity alleged to be in
noncompliance with the laws enforced by the Internal Revenue Service and having prosecution
potential.

Subject Seizure Investigation – An investigation to locate and seize assets that are subject to
seizure or forfeiture under various U.S.C. titles and sections such as 26 U.S.C. § 7302 or
18 U.S.C. §§ 981, 982, or 984.

Tax-Related Violation – A violation involving a Title 26 section or one of the following
Title 18 sections: § 286, § 287, or § 371 associated with a Title 26 violation, or § 371 associated
with a Title 26 and a Title 31 violation.

Title 18 – U.S.C. Title 18, Crimes and Criminal Procedure. Various sections of Title 18 apply to
violations that are within the jurisdiction of the CI function. Examples include § 286,
Conspiracy to Defraud the Government with Respect to Claims; § 287, False, Fictitious, or
Fraudulent Claims; § 371, Conspiracy to Commit Offense or to Defraud United States; and
§§ 1956 and 1957, Laundering of Monetary Instruments and Engaging in Monetary Transactions
in Property Derived from Specified Unlawful Activity. The most common section investigated
under this statute is money laundering.

Title 26 – U.S.C. Title 26, Internal Revenue Code.

Title 31 – U.S.C. Title 31, Money and Finance. Several sections of Title 31 apply to violations
that are within the jurisdiction of the CI function. Examples include § 5322, Criminal Penalties
(for willful violations of Title 31 sections), and § 5324, Structuring Transactions to Evade
Reporting Requirement Prohibited.




                                                                                            Page 13
                Statistical Portrayal of the Criminal Investigation Function’s
          Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

                                                                                                                      Appendix V


                                Detailed Charts of Statistical Information

Figure 1 – Special Agent Staffing at the End of Each Fiscal Year................................... Page 16

Figure 2 – Field Special Agent Staffing at the End of Each Fiscal Year.......................... Page 16

Figure 3 – Number of Subject Investigations Initiated Each Fiscal Year ......................... Page 17

Figure 4 – Field Special Agent Staffing at the End of Each Fiscal Year and the
           Number of Subject Investigations Initiated Each Fiscal Year ........................ Page 17

Figure 5 – Special Agent Staffing at the End of Each Fiscal Year and the Number of
           Subject Investigations Initiated Each Fiscal Year: 10-Year Trend ................ Page 18

Figure 6 – Special Agent Direct Investigative Time Expended Each Fiscal Year ........... Page 18

Figure 7 – Number of Subject Investigations Initiated Each Fiscal Year for a
           Tax-Related or Nontax-Related Violation ...................................................... Page 19

Figure 8 – Number of Subject Investigations Initiated Each Fiscal Year by
           Principle United States Code Title ................................................................. Page 19

Figure 9 – Number of Subject Investigations Initiated Each Fiscal Year by
           Compliance Strategy Program....................................................................... Page 20

Figure 10 – Number of Subject Investigations Initiated Each Fiscal Year by
            Source of the Allegation or Information.......................................................... Page 20

Figure 11 – Number of Open Subject Investigations at the End of Each Fiscal Year
            by Type of Investigation: Grand Jury or Nongrand Jury Investigation ......... Page 21

Figure 12 – Number of Open Subject Investigations at the End of Each Fiscal Year
            and the Number per Nonsupervisory Special Agent in Field Offices ............ Page 21

Figure 13 – Number of Subject Investigations Discontinued Each Fiscal Year................ Page 22

Figure 14 – Average Elapsed Days of Subject Investigations Discontinued
            Each Fiscal Year............................................................................................ Page 22

Figure 15 – Number of Subject Investigations Referred for Prosecution
            Each Fiscal Year............................................................................................ Page 23

Figure 16 – Number of Subject Investigations Referred for Prosecution
            Each Fiscal Year for a Tax-Related or Nontax-Related Violation ................. Page 23

Figure 17 – Number of Subject Investigations Referred for Prosecution
            Each Fiscal Year by Principle United States Code Title................................ Page 24

Figure 18 – Number of Subject Investigations Referred for Prosecution
            Each Fiscal Year by Compliance Strategy Program ..................................... Page 24


                                                                                                                               Page 14
                Statistical Portrayal of the Criminal Investigation Function’s
          Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

Figure 19 – Number of Subject Investigations Referred for Prosecution Each Fiscal
            Year by Type of Investigation: Grand Jury or Nongrand Jury
            Investigation ................................................................................................... Page 25

Figure 20 – Average Elapsed Days of Subject Investigations Referred for Prosecution
            Each Fiscal Year ............................................................................................ Page 25

Figure 21 – Number of Subjects Convicted of a Crime Each Fiscal Year ........................ Page 26

Figure 22 – Number of Subjects Convicted of a Crime Each Fiscal Year by
            Compliance Strategy Program....................................................................... Page 26

Figure 23 – Number of Subjects Sentenced for a Crime Each Fiscal Year...................... Page 27

Figure 24 – Number of Subjects Sentenced for a Crime Each Fiscal Year for a
            Tax-Related or Nontax-Related Violation ...................................................... Page 27

Figure 25 – Number of Subjects Sentenced for a Crime Each Fiscal Year by
            Principle United States Code Title ................................................................. Page 28

Figure 26 – Number of Subjects Sentenced for a Crime Each Fiscal Year by
            Compliance Strategy Program....................................................................... Page 28




                                                                                                                                    Page 15
                Statistical Portrayal of the Criminal Investigation Function’s
          Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

Figure 1: Special Agent Staffing at the End of Each Fiscal Year.

        2,950


        2,900                                                                      2,907


        2,850                2,849
                                                                2,820
        2,800                                                                                      2,805


        2,750                                 2,746

        2,700


        2,650
                     FY 99            FY 00             FY 01              FY 02           FY 03

     Source: Internal Revenue Service (IRS) Data Books, Publication 55B.


Figure 2: Field Special Agent Staffing at the End of Each Fiscal Year.

        2,700
                             2,669
        2,650

                                                                                   2,616
        2,600


        2,550                                                                                      2,543

        2,500                                 2,495
                                                                2,477
        2,450


        2,400
                     FY 99            FY 00             FY 01              FY 02           FY 03

     Source: The Criminal Investigation (CI) function’s Business Performance Review reports.




                                                                                                           Page 16
                 Statistical Portrayal of the Criminal Investigation Function’s
           Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

Figure 3: Number of Subject Investigations Initiated Each Fiscal Year.1

         4,200


         4,000                                                                                               4,001
                                3,952
                                                                                        3,906
         3,800


         3,600


         3,400                                      3,372
                                                                    3,284
         3,200


         3,000
                        FY 99               FY 00           FY 01               FY 02                FY 03

      Source: IRS Data Books, Publication 55B.


Figure 4: Field Special Agent Staffing at the End of Each Fiscal Year and the Number of Subject
Investigations Initiated Each Fiscal Year.
        4,500

        4,000                  3,952                                                     3,906                 4,001

        3,500
                                                    3,372           3,284
        3,000
                               2,669                                                     2,616
        2,500                                       2,495           2,477                                      2,543

        2,000

        1,500

        1,000
                       FY 99                FY 00           FY 01                FY 02                 FY 03
                                Field Special Agents                    Subject Investigations Initiated

      Source: IRS Data Books, Publication 55B, for subject investigations initiated. The CI function’s Business
      Performance Review reports for field special agent staffing.




1
  Since actions on a specific subject investigation may cross fiscal years, the data shown in charts may not always
represent the same universe of investigations shown in other charts.
                                                                                                                       Page 17
                Statistical Portrayal of the Criminal Investigation Function’s
          Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

Figure 5: Special Agent Staffing at the End of Each Fiscal Year and the Number of Subject Investigations
Initiated Each Fiscal Year: 10-Year Trend.

       6,000       5,346                5,334
       5,500
       5,000                                      5,335        4,665
       4,500                  5,000
                                                                                                         3,906
       4,000                                                                       3,372                            4,001
                                      3,352
       3,500     3,199                                                  3,952
                                                           2,978
                           3,363                                                                3,284      2,907
       3,000
                                                3,167
       2,500                                                         2,849         2,746     2,820                  2,805
       2,000
       1,500
       1,000
                 FY94      FY95       FY96      FY97       FY98       FY99       FY00      FY01         FY02       FY03

                             Special Agents                        Subject Investigations Initiated

     Source: IRS Data Books, Publication 55B. CI function enforcement statistics derived from the IRS Internet
     web site for Fiscal Years 1994 through 1998 subject investigations initiated.


Figure 6: Special Agent Direct Investigative Time Expended Each Fiscal Year.

       59%
                                                                                                                   5 8 .5 %
       58%                 5 8 .0 %
                                                5 7 .5 %
       57%
                                                                                           5 6 .7 %
       56%


       55%                                                            5 5 .1 %


       54%

       53%
                   FY 99                 FY 00                FY 01                  FY 02                 FY 03
     Source: Criminal Investigation Management Information System (CIMIS) Report 2, Total Time by Criminal
     Investigation Program and Activity.




                                                                                                                            Page 18
                Statistical Portrayal of the Criminal Investigation Function’s
          Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

Figure 7: Number of Subject Investigations Initiated Each Fiscal Year for a Tax-Related or
Nontax-Related Violation.

       3,000

       2,500                                                                                  2,466              2,446

                          2,036
       2,000
                                                   1,785               1,851
                          1,916
       1,500                                       1,587                                                         1,555
                                                                       1,433                  1,440

       1,000

          500

                0
                     FY 99                 FY 00              FY 01                  FY 02               FY 03

                                                 Nontax-Related                 Tax-Related

     Source: CI function enforcement statistics derived from the IRS Internet web site.


Figure 8: Number of Subject Investigations Initiated Each Fiscal Year by Principle United States Code Title.
        2,500
                              2,374
                                                                                                             2,004
        2,000                                                                             1,911
                                                   1,922                                                         1,875
                                                                        1,700             1,847
        1,500                 1,490                                     1,482
                                                   1,360

        1,000


          500

                              88                   90                   102                   148                122
                0
                      FY 99                FY 00              FY 01                  FY 02               FY 03

                                      Title 18                    Title 26                    Title 31

     Source: CIMIS Report 11, Program Summary Analysis.




                                                                                                                         Page 19
                Statistical Portrayal of the Criminal Investigation Function’s
          Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

Figure 9: Number of Subject Investigations Initiated Each Fiscal Year by Compliance Strategy Program.

       1,600                                                                                                                                1,535
                                                                                                                        1,554
       1,500       1,495
                                                                                                                                                    1,506
       1,400                                                                                                    1,485
                               1,374
       1,300
                                                              1,254             1,313
       1,200
       1,100                               1,109

       1,000          1,083                                                              1,020
                                                                           951                                                         960
         900                                        1,009
                                                                                                        867
         800
         700
                      FY 99                         FY 00                       FY 01                           FY 02                       FY 03

                                       Illegal Source                       Legal Source                          Narcotics-Related

     Source: IRS Data Books, Publication 55B. The CI function’s Business Performance Review report for Fiscal
     Year 1999.


Figure 10: Number of Subject Investigations Initiated Each Fiscal Year by Source of the Allegation or
Information.
       1 ,4 0 0

       1 ,2 0 0

       1 ,0 0 0

         800

         600

         400

         200

               0
                     FY 99                          FY 00                       FY 01                           FY 02                        FY 03
                   F e d e r a l A g e n c ie s                       U .S . A t to r n e y s                            I n te r n a l R e v e n u e S e r v ic e
                   G o v e r n m e n t S ta t e & L o c a l           P u b lic                                          F r a u d D e te c t io n C e n te r s
                   C u r re n c y T r a n s a c tio n s               S o u rc e s O th e r T h a n L is te d            G o v e r n m e n t O th e r



     Source: CIMIS Report 11, Program Summary Analysis. The CIMIS for Fiscal Year 2003.




                                                                                                                                                                     Page 20
                 Statistical Portrayal of the Criminal Investigation Function’s
           Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

Figure 11: Number of Open Subject Investigations at the End of Each Fiscal Year by Type of Investigation:
Grand Jury or Nongrand Jury Investigation.
        3,500

        3,000
                                                                                                                                 2,863
                                                                                                          2,634
        2,500                   2,472                    2,377                   2,334
        2,000
                                                                                                          1,761                  1,751
        1,500                   1,409                    1,371                   1,367
        1,000

          500

                0
                        FY 99                   FY 00                    FY 01                    FY 02                  FY 03
                                                 Grand Jury                      Nongrand Jury

      Source: CIMIS Report 11, Program Summary Analysis.


Figure 12: Number of Open Subject Investigations at the End of Each Fiscal Year and the Number per
Nonsupervisory Special Agent in Field Offices. Special agents may have other investigations assigned
concurrently with open subject investigations such as primary investigations, subject seizure investigations, and
subject investigations that have been referred for prosecution.
        5,000                                                                                                               2.50
                                                                                         4,395               4,614

        4,000               3,881                3,748              3,701                                                   2.00
                                                                                                                  2.00
                                                                                                  1.86
        3,000                           1.63              1.68               1.66                                           1.50


        2,000                                                                                                               1.00


        1,000                                                                                                               0.50


                    0                                                                                                       0.00

                         FY 99                 FY 00             FY 01              FY 02                FY 03

                                  Open Subject Investigations                                    Investigations per Special Agent

      Source: CIMIS Report 11, Program Summary Analysis, for the number of open subject investigations. The
      CI function’s Nation Criminal Investigation Statistics report for the number of open subject investigations per
      nonsupervisory special agent in field offices.




                                                                                                                                         Page 21
                Statistical Portrayal of the Criminal Investigation Function’s
          Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

Figure 13: Number of Subject Investigations Discontinued Each Fiscal Year.

       1,300
                                                                                              1,225
       1,200
                            1,143
       1,100
                                             1,065                            1,068
       1,000                                                  1,005

         900

         800

         700

         600
                    FY 99            FY 00            FY 01           FY 02           FY 03

     Source: IRS Data Books, Publication 55B.


Figure 14: Average Elapsed Days of Subject Investigations Discontinued Each Fiscal Year.

       550


       500                                                   506.0
                                                                              491.0
                                            483.5

       450
                                                                                              427.5
                          420.5
       400


       350


       300
                  FY 99             FY 00            FY 01            FY 02           FY 03

     Source: CIMIS Report 11, Program Summary Analysis.




                                                                                                      Page 22
                 Statistical Portrayal of the Criminal Investigation Function’s
           Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

Figure 15: Number of Subject Investigations Referred for Prosecution Each Fiscal Year.

        3,500


                               3,120
        3,000



        2,500                                                                                            2,541
                                                 2,434
                                                                   2,335
                                                                                         2,133
        2,000



        1,500
                       FY 99             FY 00             FY 01                FY 02            FY 03

      Source: IRS Data Books, Publication 55B.


Figure 16: Number of Subject Investigations Referred for Prosecution Each Fiscal Year for a Tax-Related or
Nontax-Related Violation.

        2,000
        1,800                  1,762
        1,600
        1,400                  1,358             1,391                                                   1,353
                                                                   1,333
                                                                                     1,108
        1,200                                                                                            1,188
        1,000                                    1,043             1,002                 1,025
          800
          600
          400
          200
                0
                       FY 99             FY 00             FY 01                FY 02            FY 03

                                             Nontax-Related                Tax-Related

Source: CI function enforcement statistics derived from the IRS Internet web site.




                                                                                                                 Page 23
                 Statistical Portrayal of the Criminal Investigation Function’s
           Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

Figure 17: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by Principle United
States Code Title.

        2,500


        2,000                  1,988

                                                       1,573              1,539                             1,594
        1,500
                                                                                          1,289
        1,000                  1,068
                                                                                                            876
                                                       794                728             772
          500


                0              64                      67                 68              72                71

                       FY 99                   FY 00             FY 01            FY 02             FY 03

                                          Title 18               Title 26            Title 31

      Source: CIMIS Report 11, Program Summary Analysis.


Figure 18: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by Compliance
Strategy Program. The numbers of Illegal Source Financial Crimes and Legal Source Tax Crimes were not
published for Fiscal Year 1999. In Fiscal Year 1999, the statistics published consisted of the Fraud and Narcotics
Programs. The number of Fraud Program subject investigations referred for prosecution in Fiscal Year 1999 was
1,959.
        1,300

                               1,161
        1,100
                                                                                                            1,034
                                                       926                953
          900
                                                                          847             864
                                                       799                                                  823

          700                                          709                                                  684
                                                                                          659
                                                                                          610
                                                                          535
          500


          300
                       FY 99                   FY 00              FY 01           FY 02             FY 03

                                    Illegal Source             Legal Source          Narcotics-Related

      Source: IRS Data Books, Publication 55B.




                                                                                                                    Page 24
                Statistical Portrayal of the Criminal Investigation Function’s
          Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

Figure 19: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by Type of
Investigation: Grand Jury or Nongrand Jury Investigation.
       3,000

       2,500                2,507

       2,000                                 1,990                                                   2,051
                                                              1,955
                                                                                     1,700
       1,500

       1,000

                            613
         500                                 444                                     433             490
                                                              380

               0
                    FY 99            FY 00            FY 01                  FY 02           FY 03

                                         Grand Jury                 Nongrand Jury

     Source: CIMIS Report 11, Program Summary Analysis.


Figure 20: Average Elapsed Days of Subject Investigations Referred for Prosecution Each Fiscal Year.

        430

        410                                                                         413.2

        390
                                                                                                     383.8
        370
                                                              362.4
        350

        330
                                            315.7
        310
                       307.9
        290

        270

        250
                   FY 99            FY 00             FY 01                 FY 02            FY 03

     Source: CIMIS Report 11, Program Summary Analysis.




                                                                                                             Page 25
                 Statistical Portrayal of the Criminal Investigation Function’s
           Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

Figure 21: Number of Subjects Convicted of a Crime Each Fiscal Year.

        2 ,8 0 0
                              2 ,7 1 3
        2 ,6 0 0

        2 ,4 0 0
                                                       2 ,2 4 9            2 ,2 5 1
        2 ,2 0 0

        2 ,0 0 0
                                                                                              1 ,9 2 6
        1 ,8 0 0                                                                                                 1 ,8 2 4

        1 ,6 0 0

        1 ,4 0 0

        1 ,2 0 0
                      FY 99                   FY 00                FY 01              FY 02              FY 03

      Source: IRS Data Books, Publication 55B.


Figure 22: Number of Subjects Convicted of a Crime Each Fiscal Year by Compliance Strategy Program.
The numbers of Illegal Source Financial Crimes and Legal Source Tax Crimes were not published separately for
Fiscal Year 1999. In Fiscal Year 1999, the statistics published consisted of the Fraud and Narcotics Programs. The
number of Fraud Program subjects convicted of a crime in Fiscal Year 1999 was 1,679.

        1,200

                              1,034
        1,000
                                                                           937
                                                 785
          800                                                              766                788
                                                    756                                                          760

          600                                    708                                          616                585
                                                                           548                522
                                                                                                                 479
          400

          200

                0
                      FY 99                   FY 00                FY 01              FY 02              FY 03
                                      Illegal Source              Legal Source            Narcotics-Related

      Source: IRS Data Books, Publication 55B.




                                                                                                                        Page 26
               Statistical Portrayal of the Criminal Investigation Function’s
         Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

Figure 23: Number of Subjects Sentenced for a Crime Each Fiscal Year.

       2,700
                             2,619
       2,500                                   2,475

       2,300
                                                                  2,238
                                                                                        2,201
       2,100


       1,900

                                                                                                        1,768
       1,700


       1,500
                     FY 99             FY 00              FY 01                FY 02            FY 03

     Source: IRS Data Books, Publication 55B.


Figure 24: Number of Subjects Sentenced for a Crime Each Fiscal Year for a Tax-Related or
Nontax-Related Violation.
       1,600
                             1,452
       1,400
                                               1,341              1,332
       1,200                 1,167                                                      1,178
                                               1,134
       1,000                                                                            1,023
                                                                  906                                   933
         800                                                                                            835

         600

         400

         200

               0
                     FY 99             FY 00              FY 01                FY 02            FY 03
                                            Nontax-Related                Tax-Related

     Source: CI function enforcement statistics derived from the IRS Internet web site.




                                                                                                                Page 27
                Statistical Portrayal of the Criminal Investigation Function’s
          Enforcement Activities From Fiscal Year 1999 Through Fiscal Year 2003

Figure 25: Number of Subjects Sentenced for a Crime Each Fiscal Year by Principle United States Code
Title.

        1,600

        1,400                 1,412
                                                       1,342              1,324
        1,200                                                                             1,236

        1,000                                                                                               1,018
                              911                      868
          800                                                                             769
                                                                          666
          600                                                                                               594

          400
                              296                      265                248
          200                                                                             196               156
                0
                      FY 99                   FY 00             FY 01             FY 02             FY 03
                                       Title 18                Title 26             Title 31

      Source: CIMIS Report 11, Program Summary Analysis.


Figure 26: Number of Subjects Sentenced for a Crime Each Fiscal Year by Compliance Strategy Program.
The numbers of Illegal Source Financial Crimes and Legal Source Tax Crimes were not published separately for
Fiscal Year 1999. In Fiscal Year 1999, the statistics published consisted of the Fraud and Narcotics Programs. The
number of Fraud Program subjects sentenced for a crime in Fiscal Year 1999 was 1,691.
        1,000
                              928
          900                                     846                                     888
                                                                      859
          800                              819                     831
                                                  810                                                        726
          700                                                                             721

          600                                                                             592
                                                                          548                                568
          500
                                                                                                             474
          400

          300

          200
                      FY 99                   FY 00              FY 01            FY 02              FY 03

                                      Illegal Source            Legal Source           Narcotics-Related

      Source: IRS Data Books, Publication 55B.




                                                                                                                    Page 28
